                                                  National Railroad Passenger Corporation
                                                  Office of Inspector General
                                                  10 G Street N.E.
	                                                Washington, DC 20002




       AMTRAK EMPLOYEE TERMINATED FOR NOT DISCLOSING FEDERAL CONVICTION
                                 MAY 16, 2013
                              CASE # DC-12-0239

An Amtrak trackman, who was previously employees by the U.S. Department of State,
was under investigation by the Department Bureau of Diplomatic Security for stealing
personal identification information from a passport database and providing the
information to a credit card fraud ring. The employee pled guilty to the charges and was
sentenced to 30 months confinement and ordered to pay restitution of $71,774. In the
process of cooperating with the State Department investigation, OI determined that the
employee did not disclose on his employment application his federal criminal conviction
or several other unrelated state court convictions. He is currently incarcerated. The
trackman’s employment was terminated with a notation that he is not eligible for rehire.
